                 OFFICE OF
                 INSPECTOR
                 GENERAL
                 UNITED STATES POSTAL SERVICE




          Virtual Post Office Boxes




                          April 17, 2013


Prepared by Office of Audit
            Report Number: MS-WP-13-002
April 17, 2013

MEMORANDUM FOR:            NAGISA M. MANABE
                           CHIEF MARKETING AND SALES OFFICER AND
                            EXECUTIVE VICE PRESIDENT




FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Virtual Post Office Boxes
                           (Report Number MS-WP-13-002)

Attached are the results of our review regarding Virtual Post Office (PO) Boxes (Project
Number 13RO004MS000). Virtual PO boxes would create opportunities for customers
and businesses to manage the physical delivery of mail and parcels in the same way
they manage digital communications. Virtual PO boxes with online management would
also give users additional control over their mail — turning the mailbox into a powerful
tool to manage goods and information. This paper identifies both potential features and
challenges associated with virtual PO boxes.

If you have any questions or need additional information, please contact Janet M.
Sorensen, director, Sales and Marketing, or me at 703-248-2100.

Attachments

cc: Randy S. Miskanic
    Gary C. Reblin
    Corporate Audit and Response Management
Virtual Post Office Boxes                                                         MS-WP-13-002



                                Virtual Post Office Boxes

                                   Executive Summary

Communication is rapidly changing and people can carry on conversations, make
decisions, direct activities, and transact business using many forms of communication
media in addition to traditional mail correspondence (voice, email, tweet, instant
message, wall post, text transmittal). Communication can also happen in almost any
location (at home, work, airports, coffee shops). Digital addresses (phone, email, etc.)
are also portable, but the physical address is still largely fixed to a specific location that
is not always convenient or cost effective. For example, the current metal Post Office
(PO) box at the Post Office is sometimes too small to accommodate packages and is, at
other times, empty. In this environment, there is an opportunity for the U.S. Postal
Service to meet changing customer preferences through providing additional
functionality and a physical dimension to email communications and smart devices,
while bringing more portability and flexibility to the physical address.

The Postal Service could introduce the virtual PO box as an alternative to the physical
PO box. The virtual PO box would provide users with an address that could be
redirected anywhere they choose. The change would move PO boxes to a back office
operation at the nation’s post offices with temporary lockers or bins provided to
customers in the customer facing front office for delivery upon demand. Items received
would be held in the back office or stored in the connecting network plant if the
customer requests micro-warehousing or storage. Virtual PO boxes would
accommodate the flow of mailpieces and parcels just in time and provide users the
ability to accept or redirect mailpieces using the Postal Service's website and smart
devices. Alternate addresses could include: residences, a business, a nearby Post
Office, a temporary address, or even a nearby parcel locker. For example, someone
traveling frequently for business may request that their mail be redirected from their PO
box to the office they are traveling to. Another person on vacation may request that their
packages be delivered to a nearby gopost® parcel locker. A virtual PO box could also
provide a solution to the issue of some Post Offices having an insufficient number of
physical PO boxes to rent to customers. In addition, the virtual PO box would be a
dedicated, permanent address that would remain constant, which could help reduce
complications associated with change of address issues customers may experience
after moving.

The virtual PO box could offer many features and options which customers could
combine to suit their needs. The features and options could:

   Send alerts, via email or text message, when a customer has mail or parcels waiting.

   Give a physical dimension to email and smart devices by linking customers' email
    addresses to their PO box address and residential address for parcel fulfillment and
    other activities.

                                              i
Virtual Post Office Boxes                                                       MS-WP-13-002




   Validate the identity of users for merchants and in peer-to-peer sales, while
    concealing home addresses and personal information.

   Allow international customers to shop online and provide merchants with a U.S.
    address for parcel delivery and returns. Parcels could also be repackaged and
    shipped with other parcels traveling to the same international destination, making
    costs less prohibitive.

   Provide small businesses the ability to possess a vanity address and use the virtual
    PO box as a micro-warehouse. The virtual PO box could receive inventory and send
    items as directed by the small business to customers.

   Allow international retailers to manage parcel returns by directing that the returns be
    repackaged and sent to new customers or other U.S. locations or recycled.

   Allow the option to maintain the current physical PO box as long as there is a
    continued demand for this popular service.

In addition, future enhancements to the virtual PO box could be developed as the need
is warranted and the service has become well established. These future applications
could include the ability to:

   Enhance the alert function by offering additional capabilities such as sending
    recipients emails with images of their mailpieces.

   Use scanning technologies to convert physical documents to digital or digital
    documents to physical (known as hybrid and reverse hybrid mail, respectively).

   Provide personal message integration and data storage. For example, an individual
    could archive or store tax returns, legal documents, and real estate transaction
    records.

To provide the functionality associated with the virtual PO box, the Postal Service could
partner with companies currently providing similar services to leverage their expertise
along with the Postal Service’s well-established brand and long-standing trust of the
American people. The joint partnership could also provide investment capital for the
initiative. Because most of the features are extensions of the existing PO box product
and could be considered ancillary to a current postal product, the basic service may
require no change in existing law. The Postal Service is also well positioned to provide a
virtual PO box service because it has sole access to PO boxes and mailboxes and
maintains the address management and change of address systems for the U.S. In
addition, the virtual PO box would allow the Postal Service to effectively redeploy
excess space resulting from network optimization and move the address management
system from a cost center to a profit center. Specifically, the Postal Service could

                                             ii
Virtual Post Office Boxes                                                      MS-WP-13-002



provide space for micro-warehousing. Much of this surplus space is contiguous with
active postal operations and, therefore, can’t be sold or given away because of mail
security issues. Further, while post offices may have limited storage space, they are
already networked to large plants and mail facilities that have substantial storage space
and ongoing network transportation connectivity.

The virtual PO box would benefit the Postal Service as it responds to the complex
challenge of monetizing digital services, since the traditional PO box already has a fee
structure. The virtual PO box, in addition to adding functionality to email accounts and
smart devices, would also be a portal for broad new uses for the Postal Service’s
current network and products.




                                            iii
Virtual Post Office Boxes                                                                                           MS-WP-13-002




                                            TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

The Virtual Post Office Box ............................................................................................. 2

Role of the Postal Service ............................................................................................... 3

Virtual Post Office Box Features and Options ................................................................. 4

   Linking Addresses to a Virtual Post Office Box ............................................................ 4

   Identification Verification and Address Protection ........................................................ 5

   Active Address Management and Smart Options ........................................................ 6

   Vanity Addressing ........................................................................................................ 7

   International Shipment and Returns ............................................................................. 8

   Micro-Warehousing and Logistics Support................................................................. 10

   Message Integration and Personal Data Storage ...................................................... 11

   Option to Retain Physical Post Office Box ................................................................. 12

Implementation Challenges ........................................................................................... 12

   Operational ................................................................................................................ 12

   Information Technology.............................................................................................. 13

   Security/Liability ......................................................................................................... 14

   Privacy ....................................................................................................................... 15

   Legal/Regulatory ........................................................................................................ 15

Conclusion .................................................................................................................... 15
Virtual Post Office Boxes                                                         MS-WP-13-002



Introduction

Digital and mobile revolutions are reorienting late 20th Century modes of
communication toward current methods of communication that move with a person and
are not tied to one place. Land line telephones and faxes are tied to physical locations
that are not always convenient, whereas email, Twitter, and Facebook accounts travel
with people. Even the idea of separate telephone numbers for home and office is
becoming increasingly outdated. Control of communications is also shifting from the
sender to the recipient, giving customers more choices in where, when, and how they
receive communications. Communication is rapidly changing and people can carry on
conversations, make decisions, direct activities, and transact business using many
types of communication media.

People can decide where and how to accept their digital messages, are able to
communicate worldwide, and have become accustomed to changing the method of
communication on their own terms. They can keep some telephone numbers and email
addresses throughout their lives and throw others away when they are no longer
needed. This flexibility and portability does not yet exist in the physical world, but people
are searching for it. For example:

   A new startup company is looking to tie physical addresses to Facebook and Twitter
    to allow people to send packages to other social network participants without having
    their physical address.

   International shoppers, who can browse U.S. stores so easily online, want to be able
    to purchase goods just as effortlessly. They are renting U.S. addresses so they can
    make online purchases in the U.S., have them shipped to their “rented address,” and
    ultimately have items shipped to their international location.

   Companies and postal administrations are converting physical mail into digital mail
    that people can decide whether or not to read wherever they are located.

   Entrepreneurs are creating online stores that exist without physical locations or
    inventory.

In this rapidly changing environment, there is an opportunity for the Postal Service to
serve these needs by bringing more portability and flexibility to the physical address.
The Postal Service already offers PO box service for customers who want to receive




                                               1
Virtual Post Office Boxes                                                                         MS-WP-13-002



mail in a different location than their home address. Making the PO box virtual would
create new opportunities for customers and businesses to manage the physical delivery
of mail and parcels the way they already manage digital communications.

The Virtual Post Office Box

At its most basic level, the virtual PO box would provide users with an address that
could be redirected anywhere they choose. After appropriate identity checks, users
could sign up for a virtual PO box address (for example, VPOB #1234) and log into their
usps.com account online or use smart devices to link this address with any physical
address they choose: a residence, a business address, a nearby Post Office, or even a
physical PO box. Users could select to have packages automatically sent to a nearby
gopost parcel locker. The Postal Service’s sorting equipment would automatically read
the virtual PO box address and route mail and packages to the physical address the
user has chosen to link to their virtual PO box. This would allow the virtual PO box to
accommodate the flow of mailpieces and parcels just in time. Customers could also be
notified immediately via email or by text message when new mailpieces arrive.

The virtual PO box would bring the same portability to the physical address that already
exists for email addresses and telephone numbers. When virtual PO box holders travel
or spend time away on business, they could change the destination of their virtual PO
box to their temporary address or a nearby Post Office. A virtual PO box would be a
dedicated, permanent address that would remain constant, which could reduce
complications associated with change of address issues customers may experience
after moving.1 Change of address requests expire after a certain period of time but if a
customer has a virtual PO box, he or she would continue to receive mail regardless of
when and to where the customer moves.

In addition to portability, the virtual PO box would offer privacy. Shoppers would have an
alternative to providing their personal physical address in online commerce
transactions. A virtual PO box could also address the issue of some post offices having
an insufficient number of physical PO boxes to rent to customers.

Beyond the basic level of service, virtual PO box customers could also choose more
advanced service options that would enable them to manage each mailpiece and parcel
they receive online via virtual PO box management. Mail and parcels would be stored in
temporary lockers or bins and held at a back office location at a Post Office or a
processing plant connected to the Postal Service’s retail and processing network. While
post offices may have limited storage space, they are already networked to large plants
and mail facilities that provide substantial storage space and ongoing network
transportation connectivity. An online management tool would allow PO box holders to
see an image of each item in their virtual PO box and determine where to have it
delivered. They could log into their usps.com account to access the management tool
and reroute each piece individually or select from a range of other features.

1
 For example, Americans move an average of about 12 times in their lifetimes and we have previously reported
concerns with the change of address system.

                                                        2
Virtual Post Office Boxes                                                                         MS-WP-13-002




Customers could also manage or direct their physical mail via email. Features would
include: storage, scanning, consolidation and reshipment, and micro-warehousing. For
example, users may decide to forward the new shoes they ordered to their home
address, while storing an early birthday present until the time comes to forward it to the
recipient. A small business could use the virtual PO box to warehouse products (micro-
warehousing) until customers order them.

A virtual PO box could also provide hybrid and reverse hybrid mail services, either now
or in the future. Customers could request that the Postal Service open and scan
important mailpieces (hybrid mail) or convert letters received in a digital format to
physical (reverse hybrid mail). A hybrid mail system would allow an addressee to
receive letters sent in a digital format by the addressee in a physical form. Hybrid mail
options produce a physical dimension to email. These services are emerging and
several companies provide some of these services. The virtual PO box with online
management would give users complete control over their mail — turning the mailbox
into a powerful tool to manage goods and information.

Role of the Postal Service

The Postal Service is well positioned to provide a virtual PO box service because it has:

   The existing physical PO box product line that could be expanded and has the
    infrastructure in place to expand value-added services.

   Sole access to PO box and street addresses and exclusively maintains national
    address databases.

   A law enforcement arm to provide oversight of the services.

The Postal Service would be the 'back office' operator, leveraging existing retail and
processing network infrastructure at the nation’s post office's to tailor products and
services to best suit customers’ needs. Various pricing models could exist for senders,
such as a small rental fee for the basic virtual PO box with premiums for the use of
additional features. While no specific estimate of potential revenue from the virtual PO
box service has been developed, we recently reported potential revenue from providing
a service discussed in this report — comprehensive micro-logistics — at $3.4 billion
annually.2




2
 U.S. Postal Service Office of Inspector General (OIG) report, Revenue Generation Strategic Report (Report Number
MS-MA-10-002, dated).

                                                       3
Virtual Post Office Boxes                                                                          MS-WP-13-002




Virtual Post Office Box Features and Options

The virtual PO box could offer many features and options — some intrinsic to the
service and others optional — which customers could combine to suit their needs,
including:

   A link from addresses to the virtual PO box.
   Identity verification and address protection.
   The ability to program various options and features online.
   Vanity addressing.
   International shipment and returns.
   Micro-warehousing and logistics support.
   Personal message integration and data storage.
   The option to retain a physical PO box.

Linking Addresses to a Virtual Post Office Box

The Postal Service may be able to enhance its current address information systems to
link the various virtual PO box attributes. Specifically, the National Address
Management System and the National Change of Address databases could be used to
link virtual PO box addresses to physical addresses (default, alternative, etc.) and to link
to digital communication addresses (such as email and text messaging) for notification.3
The Postal Service is already familiar with and has implemented some of these
technical features for other initiatives. For example, for the growing gopost initiative, a
customer selects the gopost address for package delivery when purchasing a product.
The gopost address is comprised of the customer's name, account number, and
address of the gopost unit. The Postal Service’s National Address Management System
recognizes gopost addresses and formats as acceptable for addressing packages.
Virtual PO box addresses could be similarly recognized and accepted.

Customers, both individuals and businesses, requesting virtual PO box service would
be required to have their identity authenticated. The Postal Service is currently piloting
the Federal Cloud Credentialing Exchange (FCCX). FCCX is intended to serve as a
cloud-based service providing all federal agencies with the ability to accept non-federal
government-issued credentials to verify identities. The Postal Service could also use
FCCX to authenticate virtual PO box customers. Once authenticated, the customer
would be provided a unique account, complete with identifier and password. The virtual
PO box web page would be postal-owned and accessible via usps.com, leveraging the
trust and reliability of the Postal Service brand. Customers could access the portal
through their laptops, tablets, smart phones, or any new communication devices. If
customers sign up to see the contents of their virtual PO box online, they could receive
3
  The National Address Management System database contains all the addresses of the delivery point network in the
country and is continuously updated as new addresses are added or changed. It does not contain the names of
residents nor does it match residents’ names with physical addresses due to privacy requirements. The National
Change of Address database contains addresses and associated residents’ names with the capability to collect email
addresses through the change of address process.

                                                        4
Virtual Post Office Boxes                                                                            MS-WP-13-002



a text message or email notification to alert them to the status of their mailpieces. They
could then direct or re-direct the Postal Service as to what could be done with individual
mailpieces through the 'smart' or active address management choices.

Identification Verification and Address Protection

To provide a virtual PO box to a customer, the Postal Service would need physical
verification of the individual’s identity and mailing address (identification verification). As
we mentioned in a prior report,4 the Postal Service’s existing infrastructure — its 'brick
and mortar' locations and door-to-door delivery service — is a major advantage for
identity services. As a trusted neutral body with a nationwide network of locations and
postal carriers reaching every door, the Postal Service could provide in-person
verification or verification-by-mail services where it would identify, authenticate, and
certify potential customers who sign up for virtual PO boxes.

The Postal Service has experience in both providing physical authentication services for
federal agencies (such as the Department of State’s Office of Passport Services) and in
providing such services for its own products, ranging from change of address requests
to registration for the new gopost parcel lockers. By offering these services in person at
a retail location or with verification by their letter carrier, customers could work with an
organization they trust to keep their information updated and secure and, additionally,
help protect themselves against fraud and identity theft, among other things.

For international customers, the Postal Service could partner with foreign postal
operators who could offer in-person verification services to confirm and authenticate
customers' identities and addresses prior to the Postal Service assigning a PO box
address.

The Postal Service also has unique strengths in the fight against fraud, offering
protection under federal law through two law enforcement organizations: the OIG and
the Postal Inspection Service. These law enforcement organizations currently
investigate crimes that include using a false identity and fraud. The reach and
experience of these two organizations are a valuable tool for protecting customers’
privacy and security — a tool that could readily be adapted to meet the privacy needs of
virtual PO box customers.

In addition to providing in-person identification verification, the Postal Service could also
protect personal address information by encrypting a customer’s virtual PO box and
associated personal address information. This would include an option for the customer
to decline to provide a physical address or personal identification to merchants or in
peer-to-peer transactions. This 'electronic fence' would serve as a barrier against
potential external hacking efforts and provide a 'block' against threats to privacy,
preventing further discovery of an individual’s private information, like one’s home
address. The Postal Service could also use cloud-based authentication through the
previously mentioned FCCX program as an additional way to authenticate the identity of
4
    Digital Identity: Opportunities for the Postal Service (Report Number RARC-WP-12-011, dated May 29, 2012).

                                                          5
Virtual Post Office Boxes                                                     MS-WP-13-002



individuals requesting a virtual PO box in the future. Through its secure network and
national addressing system, the Postal Service can ensure protection of customers'
personal identification and information during digital communications.

Active Address Management and Smart Options

The virtual PO box would help meet customer demands for more options by providing
active address management and smart options; that is, allowing customers to choose
among several alternatives for delivery of their mail. For example, customers could log
on to the online management system for their virtual PO box to see its mail contents
and have the option to choose the delivery address for specific mailpieces or parcels
based on their specific needs.

Email users could direct and store physical mailpieces and digital messages. In
addition, users could request text message notification and direct or redirect delivery of
parcels to their residence, an alternative address, a physical PO box, or a parcel locker.
A future enhanced alert function could offer additional capabilities, such as sending a
copy of the image to the recipient. Senders would be able to better manage mail and
have a secure, authenticated link between the physical and digital addresses of their
customers. Moreover, through increased automation and tracking, customers would
have greater visibility into the status of their mail. Recipients could receive mail and
packages more quickly and could flexibly manage their delivery preferences in a 'one-
stop' manner. Using a smart device or going online, customers could choose which
mailpieces or parcels would be delivered and choose the delivery address, as well.

Premium services may also be available to allow certain mail to be scanned and stored
digitally with the Postal Service. Recent increased labor flexibility affords the Postal
Service an opportunity to position its workforce to better meet customers’ needs, for
example by moving part-time employees to a scanning center.

In addition to revenue generation, the Postal Service could save operating costs.
Current delivery methods where carriers deposit mail in boxes at home doors, curbside,
or in neighborhood consolidated boxes are costly, averaging $201 per year per city
delivery point, and $169 per year per rural delivery point. Virtual PO boxes could
position the Postal Service to reduce these associated costs, in part, by expanding the
use of centralized physical and digital delivery options, which are less expensive
alternatives. Certain private sector providers currently provide some of these services.

The virtual PO box could also offer customers a number of other delivery options, both
basic and premium.




                                            6
Virtual Post Office Boxes                                                        MS-WP-13-002



Examples of options for letters and flats:

   Send handwritten letters to my home address (basic).

   Hold my catalogues and deliver to my home address on Friday for review over the
    weekend (basic).

   Send hard copy professional journals to my home address (basic).

   I am traveling for business for 3 weeks and need some of my mail (that I identify) re-
    directed to my regional office (premium).

   Provide me images of each mailpiece and I will decide what to do with them
    (premium).

Examples of options for parcels:

   Notify me immediately by text message of any packages (basic).

   I am expecting a package that contains critical medicine; deliver to my default
    gopost/physical PO box within 4 hours (premium).

   I am a small business owner and expecting a large shipment. Hold at the Postal
    Service facility until further notified (premium for large-scale storage). If voluminous
    mail or parcels cannot be delivered and must be held at a postal facility, the facility
    could charge the customer a premium for storage space after a certain period of
    time.

Vanity Addressing

The Postal Service could offer small business customers vanity addressing via the
virtual PO box service, using a PO or other postal facility’s physical address. While
there are a limited number of physical PO boxes, the number of virtual PO boxes the
Postal Service could offer is limitless.

The Postal Service could generate revenues by charging a monthly or annual virtual PO
box vanity address rental fee. This would allow customers to present their virtual PO
box 'address' as a street address that is different from their actual physical address. For
example, they could have their vanity address such as '694 Main Street, New York, NY'
(a postal retail facility), when the customer’s actual physical address is in New Jersey.
Since many postal buildings are in prestigious neighborhoods (for example, there is one
at 1250 Broadway, New York, NY and another at 8383 Wilshire Boulevard #106,
Beverly Hills, CA), the Postal Service could charge a higher fee for vanity addresses
situated in such areas.




                                              7
Virtual Post Office Boxes                                                   MS-WP-13-002



The demand for vanity addresses has grown with the expansion of Internet commerce
and the resulting proliferation of home-based small businesses. Vanity addresses have
the benefit of combining the privacy protection offered by a PO box number with the
credibility associated with a street address. Home business owners and occasional
Internet sellers may not want to use their home address on their website or business
cards but, at the same time, want a physical address to give their business a more
professional image. In addition, renting a vanity address could allow users to receive
mail and packages from carriers such as United Parcel Service and FedEx that do not
deliver to PO boxes.

With thousands of locations across the country, the Postal Service could offer
customers a broad list of PO box addresses and other postal facilities to choose from.
Users could rent one or more of these addresses when signing up for the virtual PO box
and easily change or remove them from their account. The presence of the customer’s
unique virtual PO box number (or other unique identifier, such as smart tags or numeric
codes) in the vanity address would allow the Postal Service to associate a user’s vanity
address with their actual physical address.

Figure 1 illustrates how the vanity address of user John Smith whose virtual PO box
number is 12345 would look.

     Figure 1: Link between User’s Vanity Address and Virtual Post Office Box




      Source: OIG.


Mailpieces and parcels sent to the customer’s vanity address would be collected and
forwarded by the Postal Service to the default address or other customer-designated
delivery destination (parcel locker, overseas address, physical PO box, etc.).

International Shipment and Returns

Although international e-commerce is a fast-growing market, barriers such as high
shipping costs, cross-border payments, customs issues, and online trust present
challenges for global online businesses. The Postal Service could reduce these barriers
by offering small businesses and customers within and outside of the U.S. international
package shipment and return services. These solutions would allow international
shoppers to purchase items conveniently from U.S. websites that do not ship overseas,
charge high shipping rates, or do not accept international billing addresses, while
creating new business opportunities for U.S. merchants. Additionally, the Postal Service
could offer package return options for U.S. customers who need to return internationally
shipped packages.

                                           8
Virtual Post Office Boxes                                                                      MS-WP-13-002




For international customers, the Postal Service would provide a U.S. street address for
shipping and billing purposes, together with a virtual PO box account. The items
purchased online would be shipped by the U.S. retailer to the buyer’s physical U.S.
address. The physical U.S. address would correspond to one of the five existing Postal
Service international service centers (ISCs) and a virtual PO box address.5 Here, the
items would be forwarded to the customer’s international address. Through the virtual
PO box, users would be able to see a scanned image of the parcel, change the delivery
address, or put the shipment on hold for later delivery. When requested, the purchased
items could be repackaged and multiple orders consolidated into the same package to
further reduce shipping costs. The customer would complete all customs
documentation.

The Postal Service could complement this service by offering a number of optional
services, including short-term parcel storage, insurance services, special packaging and
shipping options, or prepaid cards with a U.S. billing address and other payment options
(such as money transfers). Similar services are currently offered by some commercial
providers. The Postal Service could consider reaching out to these companies and
potentially partnering with them. By leveraging the Postal Service's network and
infrastructure, these providers could benefit from an expanded logistics capacity and
customer base.

In conjunction with international shipment for U.S. customers, the Postal Service could
also offer return shipping for international customers for a fee. International returns
would allow international businesses several options to return internationally shipped
packages, should shipments be lost or destroyed in transit or returned by customers.
For example, if a package shipped to the U.S. from a foreign country is damaged in
transit, the Postal Service would offer to ship replacement merchandise. In addition, if a
U.S. customer receiving an internationally shipped package wants to return it (the
merchandise is the wrong color or the wrong size, for example), the customer could
drop off the package at domestic (U.S.) outlet and the Postal Service would then ship it
back to the international company or product manufacturer. A number of postal
operators, such as Deutsche Post DHL and Swiss Post, offer a similar service.




5
    The Postal Service ISCs are in Chicago, Los Angeles, Miami, New York, and San Francisco.

                                                         9
Virtual Post Office Boxes                                                                       MS-WP-13-002



Micro-Warehousing and Logistics Support

Micro-warehousing and logistics support services are part of a large and growing
market. These services are end-to-end logistics solutions and offer supply chain
capabilities for business customers, including returns and inventory management (such
as storage of goods), distribution services, order processing, and packaging of goods.
International posts and U.S.-based private sector companies operating in this market
tend to offer a wide range of services. In a prior OIG report,6 we noted that there were
gaps in e-commerce fulfillment and end-to-end solutions, particularly for small
businesses, and, while many companies offer services for warehousing, pickup, and
pack and ship operations, smaller businesses are more challenged in integrating these
various services.

Due to the recent decline in mail volume and ongoing consolidations, the Postal Service
has excess space within existing facilities which could be used for these services. As a
result of network optimization, facilities could be redeployed for micro-warehousing.
Much of this surplus space is contiguous with active postal operations and, therefore,
can’t be sold or given away because of mail security issues. The Postal Service could
expand its services to this area to help it generate more revenue by providing space for
micro-warehousing and offer this as an enhanced feature of the virtual PO box. This
would allow the Postal Service to effectively deploy/redeploy excess space resulting
from network optimization and move the address management system from a cost
center to a profit center. There are currently a number of companies in the U.S. which
offer these services for a fee, integrating with major parcel shipment companies such as
FedEx and UPS. To participate in this already burgeoning service area, the Postal
Service could offer storage, shipping, and return services for other businesses; use of
excess space in its various postal facilities nationwide; and use of its network of Post
Offices and processing facilities to offer business customers a complete end-to-end
logistics solution.

The Postal Service would offer space rental and shipping and return services, primarily
for small businesses that have inventory storage and shipping needs and need this
logistics solution. Small businesses would pay a fee to the Postal Service to receive and
store their inventory at various postal facilities and would then, via the virtual PO box
account, direct the Postal Service to ship requested inventory from the storage facility
as ordered by the customer. The Postal Service could also manage returns for these
businesses via the virtual PO box. The Postal Service platform is well-positioned to
connect the dots between senders and receivers, both physically and electronically.
Additionally, the Postal Service could offer a suite of services to larger companies with
goods that do not sell quickly and thus require warehousing, or to international
businesses offering goods online in the U.S. All of these businesses would benefit from
the storage options and capabilities of the Postal Service and its vast network.



6
 The Postal Service Role in the Digital Age, Part 2: Expanding the Postal Platform (Report Number RARC-WP-11-
003, dated April 19, 2011).

                                                      10
Virtual Post Office Boxes                                                                     MS-WP-13-002



Message Integration and Personal Data Storage

As First-Class Mail® volume continues to decline, the Postal Service needs to position
itself as a 21st Century communications provider, not just a physical mail delivery
service. Stakeholders have commented during focus group sessions we hosted in 2012
that the future of the Postal Service rests with electronic solutions.7 Specifically, some
mailer participants observed that there was no reliable way for customers to store
financial data digitally without investing the time to set up their own household
management centers, or use commercial systems they are unfamiliar with. Similarly,
this concern applies to archiving or storing tax return filings, legal documents, real
estate transaction records, photographs, and medical records.

Personal data storage is another feature that can be integrated into the virtual PO box
suite of services to address this gap in the marketplace. For example, an individual’s
medical files could be stored and sent to an alternative medical team in the event of an
accident or emergency away from home. Benefits for the Postal Service would include
improving customer service and generating additional revenue sources. While some
private sector entities provide data storage services, the Postal Service enjoys brand
recognition and is engendered with trust (and enforcement authority) to handle and
protect the mail. Moreover, it enjoys a centuries-long history that can help assure
customers that their confidential data will be secured for the long term.

Like several other features of the virtual PO box, this would be an optional service. It
could primarily be targeted to individuals, households, small to medium-sized
businesses, and non-governmental organizations. At a basic level, it could provide data
storage that customers could purchase based on the size of data and the length of time
data are stored. Since virtual PO boxes integrate physical and digital addresses, users
could customize services to be added on later. For example, after receiving an alert
about an important mailpiece via text message, a customer could direct the Postal
Service via a smart phone app to scan physical mailpieces and store them digitally.

In addition to managing mail digitally, customers could use a virtual PO box for
centralized data storage and uploading documents for storage into their account.
Examples of such documents include birth and marriage certificates, copies of
passports and drivers’ licenses, insurance files and tax records, among others.




7
 Summary of Focus Group Discussion on the Future of First-Class Mail (Report Number MS-MA-12-001, dated
April 20, 2012).

                                                     11
Virtual Post Office Boxes                                                      MS-WP-13-002




Option to Retain Physical Post Office Box

For customers who want to maintain their physical PO boxes, they could integrate those
boxes as an 'address option' with their new virtual PO box account (using the physical
PO box as a delivery alternative, much like selecting a home address, a parcel locker or
a vacation address). Therefore, as long as there is continued demand for this popular
service, physical PO boxes would remain as valuable and viable an option for
customers in the future as they are today.

Implementation Challenges

The development and roll-out of the virtual PO box service touches almost every
functional area of the Postal Service. Implementation of such a service can be broken
down into operational, information technology (IT), security, liability, privacy, and
legal/regulatory issues.

Operational

Among the most important operational considerations is how items could be forwarded
to the designated virtual PO box address. Updates to the Postal Automated Redirection
System would be required to automatically intercept and forward items that are
redirected at the customer’s discretion to their designated delivery address.

Postal Service management should conduct market research to determine test markets
for the roll-out of the virtual PO box pilot. Among the criteria for determining where to
offer a pilot, the Postal Service could consider post offices that have no or low vacancy
rates for PO box rentals, well known vanity address locations (Beverly Hills, CA,
Middleburg, VA, etc.), as well as leveraging current and planned gopost locker
locations.

Internationally, the Postal Service should consider offering the service to customers in
markets with significant cross-border volume with the U.S. For example, Brazil and
Chile have experienced large increases in recent years as a growing middle class and
favorable currency exchange rates have made American goods increasingly affordable.

Another consideration is employee training. While customers could complete much of
the registration process online, clerks would need to be familiar with the product and
registration process. In-person authentication for the virtual PO box service would be
similar to the procedures already used for PO boxes, registered items, passports, and
gopost. Mail handlers and carriers would also require instruction on recognizing virtual
PO box addresses and ensuring that virtual PO box pieces are directed or re-directed to
the designated address meeting the required service standards.

Another major factor in rolling out the service concerns the availability of space at Postal
Service facilities. Postal Service management currently tracks excess or underused


                                             12
Virtual Post Office Boxes                                                      MS-WP-13-002



space through its facilities database and would need to determine which locations could
offer the service. Some smaller POs and stations have limited or no space available. A
determination would also need to be made whether contract postal units could
participate. For any micro-warehousing operations, the Postal Service would likely
need to use larger facilities, such as network distribution centers. The international
package reshipment service could use one of the five international service centers
depending on the destination country (for example Miami to Latin America, San
Francisco to China, etc.). The Postal Service would need to develop a procedure for
cross-border returns. Parcels containing items from multiple merchants would need an
address protocol (in other words, a single return U.S. address). The Postal Service
would also need to determine an appropriate fee structure for returns. Some
comparable U.S.-based services currently provide a free international return service to
their U.S. facility and forward on, for free if the item has a prepaid merchandise return
envelope or for a flat fee (for example $8 for the first pound, plus $2 for each additional
pound).

Information Technology

The virtual PO box presents a few potentially significant IT changes. The first and most
important is modifying the address management system to allow for the use of virtual
PO boxes. The system already reads the recently added gopost locker addresses (for
example, Customer Name, 1602 GoPost #ZA12345, Arlington, VA 22204), so creating a
new field to accommodate virtual PO box addresses is possible. A new database, as
illustrated in Figure 2, could be created to link the virtual PO box to physical addresses
in the Address Management System and National Change Of Address databases with
other optional identifiers such as an email address or geocode.




                                            13
Virtual Post Office Boxes                                                               MS-WP-13-002




     Figure 2: Linking Postal Service Databases to a Virtual P.O. Box Database

                     Address Management                            National Change of
                      System Database                              Address Database
                            (AMS)                                       (NCOA)




                                        Database for storing
                                       VPOB addresses and
                                      other optional identifiers
                                         (email addresses,
                                           geocodes, etc)




     Source: OIG.

A second IT issue would be creating a user interface for online registration on
usps.com. To reduce retail transaction costs, the Postal Service could consider using its
FCCX secure network to authenticate domestic users. For international users,
customers could register online, but may require in-person authentication by a foreign
postal partner depending on legal requirements.

Security/Liability

The virtual PO box service would require some additional measures to ensure adequate
physical security of items. For example, micro-warehousing or international package
reshipments would leave merchandise visible and susceptible to theft. For higher value
items, registered cages or lockers could be used for storage. For the international
service, measures would also need to be considered to reduce opportunities for fraud. A
virtual PO box address could be used to commit illicit activities such as shipping
prohibited items, such as illegal or prescription drugs, child pornography, weapons, etc.
Although a virtual PO box would be linked to an individual/business and a permanent
physical address, such shipments must be closely monitored to minimize opportunities
for fraudulent activities. The OIG and Postal Inspection Service would be well positioned
to provide this oversight.

On the domestic side, there would be no major change to how insurance and liability
procedures are currently handled for claims of theft or damage using the virtual PO box
service. However, liability and indemnification policies for the international package
reshipment service would need to be clarified given the Postal Service’s role as a third
party consolidator and ’proxy sender’ on behalf of the international customer. In cases
where the Postal Service acts as the sender, there may be increased attempts by
addressees to make false claims for theft or damage.



                                                14
Virtual Post Office Boxes                                                     MS-WP-13-002



Privacy

The Postal Service could continue leveraging its trusted name and reputation for
protecting the privacy of its customers. Currently, the Postal Service shares updated
'address only' information in the Address Management System with mailers who
subscribe to the update service. Similarly, this service could be expanded to include the
use of virtual PO box addresses when requested by the customer. As the Privacy Act
prohibits the Postal Service from sharing an individual’s name from the National Change
of Address database with mailers, the Postal Service would continue to share address-
only updates related to PO boxes with businesses. Thus virtual PO boxes would be
afforded the same privacy protections as other Postal Service products.

Furthermore, the Address Management System and National Change of Address
databases could be leveraged to support a third new database (see Figure 2) containing
virtual PO box addresses and other optional information, such as email addresses and
geocodes. As with any online-based service, privacy concerns may arise. However,
these could be easily overcome given the opt-in nature of the service, by providing a
clear, concise privacy statement that prevents the Postal Service from sharing
information with parties other than those customers choose.

Legal/Regulatory

Most of the virtual PO box features are extensions of current services — the vanity
address is closely related to PO box rentals — or could be considered postal services
and would require no change in the law. However, the Postal Regulatory Commission
would have to approve the virtual PO box service including all of its proposed optional
features such as micro-warehousing, international package reshipment, and personal
data storage. As PO boxes are now classified as competitive services and there are
providers of similar products, such a service would likely be considered a competitive
product.

Conclusion

The digital and mobile revolutions are transforming how people communicate and, in
the case of the mailing industry, control is shifting from the sender to the recipient.
Advanced digital offerings are giving customers more choices in what, when, how, and
where they receive communications.

The Postal Service is uniquely positioned to meet its customers’ needs and to
participate in the new communications and commerce landscape in a number of ways.
Namely, the Postal Service maintains national address databases and can use its
expansive retail, processing, and delivery networks and infrastructure to provide storage
and shipping capabilities. Further, the Postal Service can leverage its brand trust and
loyalty to provide secure means of digital communication and use its enforcement and
oversight capabilities to ensure the security and confidentiality of its services. With an
existing and well-established traditional PO box product line, the Postal Service can


                                            15
Virtual Post Office Boxes                                                       MS-WP-13-002



expand the product with basic and advanced features. Virtual PO boxes could help the
Postal Service meet the present and future needs of its customers in an increasing
physically and digitally integrated landscape.

A virtual PO box service can help meet the evolving needs of mail users by combining
the familiarity of existing postal products and services (physical PO boxes and delivery
options) with enhanced options, including micro-warehousing, digital storage, and
international shipment and returns, among others. The Postal Service could monetize
these services using an existing, well-established and trusted product line and reduce
operating costs, such as those related to unsuccessful deliveries. Implementation of a
virtual PO box could present challenges in the areas of operations, IT, security, liability,
privacy, and legal/regulatory concerns.

To provide the functionality associated with the virtual PO box, the Postal Service could
partner with companies currently providing some of these services. A collaborative
partnership could also help provide investment capital for the initiative. The Postal
Service has the legacy of serving the nation as a communications platform and it can
continue to serve all of its customers with access to these digital and physical delivery
features.




                                             16
